No. ----MARY SWARTZLANDER,
Petitioner,
v.

UNITED STA TES,
Respondent.
CERTIFICATE OF SERVICE
I, Marianne Dugan, attorney for Petitioner, admitted to this Court, state that I did, on
December 7, 2020, send out from Eugene, Oregon, one package containing one copy of the
Petition for Writ of Certiorari in the above-entitled case. All parties required to be served have
been served by delivery to FedEx, a third-party commercial carrier, on December 7, 2020, for
delivery within 3 calendar days.
The package was plainly addressed to the following:
Tamara N. Rountree, Attorney
United States Department of Justice
ENRD/Appellate Section
P.O. Box 23795
Washington, DC 20026-3795
(202) 514-1174
Attorney for Respondent, Unite

